 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




THE IMPACT OF OBRA 1990 ON STATE

REGULATION OF MEDIGAP INSURANCE





         +“          “-?
          g’               WINE GIBBS BROWN

        .2s                Inspector General
          ‘6
           %+ -#

             +%d~~             MARCH 1995
              >               OEI-09-93-00230

              EXECUTIVE                          SUMMARY


PURPOSE

TO determine the impact of the Omnibus Budget Reconciliation Act of 1990 on State
regulation of Medigap insurance and on related consumer education.

BACKGROUND

l%e M&are     Program and Medicare Supplemental      or “Medigap” Insurance

Congress established the Medicare program in 1965 under title XVIII of the Social

Security Act. Medicare consists of two separate insurance programs, hospital

insurance (part A) and supplementary medical insurance (part B). It provides

payment for certain medical services for persons at least 65 years of age or under 65 if

disabled, including those afflicted with end-stage renal disease. In 1993, Medicare

covered about 32.1 million aged and 3.4 million disabled beneficiaries. The Health

Care Financing Administration (HCFA) manages the Medicare program.


Medicare covers about 75 percent of the actual cost of medical care provided to

beneficiaries. Beneficiaries are responsible for deductibles and coinsurance amounts

under both parts A and B, as well as services and items that Medicare does not cover.

Almost three-quarters of aged Medicare beneficiaries have private health insurance,

including Medicare supplemental, or “Medigap,” to cover some of their expenses.


Regulation of Medigap Insurance

The States were solely responsible for regulating Medigap until 1980, when Congress
responded to numerous reports of abuses in the marketing of Medigap insurance.
Legislation established minimum Federal standards for Medigap policies by adopting
model standards developed by the National Association of Insurance Commissioners
(NAIC). At the time of our fieldwork, the Omnibus Budget Reconciliation Act of
1990 (OBRA 1990) contained the most recent amendment to the Medigap statutes. It
required the standardization of Medigap policies, Federal and State action to curb
abuses in the marketing of Medigap policies, and the education of consumers. The
States’ insurance departments and information, counseling, and assistance (ICA)
grantee programs are responsible for regulation and education.

DEVELOPMENTS         SINCE ISSUANCE OF THE DRAFI’ REPORT

On October 31, 1994, Congress passed the Social Security Act Amendments of 1994.
Effective January 1995, the amendments clarify that a six-month open enrollment
period applies to all beneficiaries who are age 65, including those who had been
entitled to Part B benefits prior to age 65 due to end-stage renal disease or disability,
The legislation also amends the anti-duplication provision to allow some Medigap


                                             1
RECOMMENDATIONS

We recommend that HCFA:

1.     implement plans for direct regional office assistance to ICA grantees;

2.	    a.     consider expanding the Complaints Database System to reflect received,
              closed, and pending Medigap complaints;

       b.	    direct State insurance departments to furnish key required data, such as
              policy type, for each reporting period;

       c.     clarify instructions to assure uniform reporting of data by States; and

3.	    work with NAIC and State insurance departments to encourage States to adopt
       consumer safeguards exceeding the minimum standards, including open
       enrollment for the disabled and community rating of premiums.

AGENCY COMMENTS AND OFFICE OF INSPECZOR                       GENERAL      RESPONSE

In written comments on the draft report, HCFA concurred fully with the report’s
recommendations.      The HCFA described actions they already have taken or plan to
take to (1) provide regional office support to ICA grantees, (2) obtain key required
data, (3) clarify reporting instructions, and (4) pursue a legislative proposal to mandate
the use of community rating for Medigap policies. They do not, however, plan to
request Office of Management and Budget clearance for expanded data collection at
this time. The HCFA noted that the Social Security Act Amendments of 1994 address
issues surrounding open enrollment for the disabled and the anti-duplication provision.
The full text of HCFAS comments appears in appendix C. In response to HCFAS
comments, we have made technical corrections to reflect the passage of the Social
Security Act Amendments of 1994 and actions taken by HCFA.




                                            .. .
                                            111
                     TABLE                     OF CONTENTS

                                                                                                                  PAGE

EXECUTIVE         SUMMARY

INTRODUCTION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..1


FINDINGS.      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..10


lmpactof   OBRA1990Medigap                 reforms on State regulation . . . . . . . . . . . . . . . . . 10


EffectiveFederal/Statecollaboration               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...14


]ssuesrequiring    further action         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...14


RECOMMENDATIONS                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..18


APPENDICES

A: The 0BRA1990Minimum                    Medigap Standards              . . . . . . . . . . . . . . . . . . . . . . A-1


B:	 The NAIC Standard Complaint Data Form

    and the Characteristics ofMedigap Complaints . . . . . . . . . . . . . . . . . . . . . . . B-1


C: The HCFA Comments                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..C-1

                         INTRODUCTION

PURPOSE

To determine the impact of the Omnibus Budget Reconciliation Act of 1990 on State
regulation of Medigap insurance and on related consumer education.

BACKGROUND

%   Mkdicare Program

Congress established the Medicare program in 1965 under title XVIII of the Social
Securi~Act toprovide health insurance fortheelderly       and disabled. It consists of
two separate but complementary insurance programs, hospital insurance (part A) and
supplementary medical insurance (part B). Although part A is called hospital
insurance, it also covers semices furnished by skilled nursing facilities, home health
agencies, and hospices. Part B covers a wide range of medical semices and supplies,
including physician services and durable medical equipment. In 1993. Medicare
covered about 32.1 million aged and 3.4 million dis~b~ed beneficiaries. The Health
Care Financing Administration (HCFA) manages the Medicare program.

W4y Beneficiaries Might Need lksurance Coverage Supplemental   to AAiicare

Medicare does not cover all health services or all costs. Beneficiaries are responsible
for deductibles and coinsurance under both parts A and B, as well as services and
items that Medicare does not cover. For example, when physicians accept the
Medicare-approved amount for part B services as payment in full (assignment of
benefits), Medicare covers only 80 percent of this amount, excepting mental health
services. For mental health services, Medicare covers 50 percent of approved charges,
and beneficiaries are responsible for 50 percent. Beneficiaries also may have to pay
amounts above those approved if they receive covered services from physicians who do
not accept assignment.

While Medicare covers most of the cost of medical care provided to beneficiaries,
almost three-quarters of aged beneficiaries buy private health insurance for greater
protection. These plans typically provide coverage for some or all of the deductible
and coinsurance amounts for Medicare-covered selvices. They are known as
“Medigap,” because they fill the gaps in Medicare benefits. Sometimes they also cover
items or services excluded by Medicare, such as preventive health care or most
outpatient prescription drugs.

Despite the national extent of Medigap insurance coverage, Medigap policies account
for a small portion of total premiums for health insurance products sold. According to
the National Association of Insurance Commissioners (NAIC), Medigap insurance
premiums represented less than three percent of those written nationally in 1992. The


                                           1
1992 State-reported premiums for Medigap insurance were $11.8 billion. The total
premiums written nationally by Property and Ca.sua]ty and Life/Health insurance
companies, excluding Blue Cross and Blue Shield plans not organized as insurers, were
$443.5 billion.

Reg4dim    of A4edigap

The States were solely responsible for regulating Medigap until 1980, when Congress
responded to numerous reports of abuses in the marketing of Medigap insurance.
The “Baucus Amendment” established minimum Federal standards for Medigap
policies by adopting model standards developed by NAIC. The amendment gave
states the opportunity to adopt the Federal standards as part of their regulatory
programs for Medigap insurance. The Baucus amendment, however, lacked the
enforcement power to assure that States adopted the Federal standards.

Repeal of the Catastrophic Coverage Act of 1988 was the greatest stimulus to further
Congressional action to regulate Medigap insurance. That legislation would have filled
some major gaps in Medicare by limiting beneficiaries’ out-of-pocket expenses and by
increasing coverage. As a result, during the Medicare Hearings of 1990, the
Subcommittee on Medicare and Long-term Care of the Senate Committee on Finance
concluded that “several specific problem areas exist [with Medigap insurance] and
must be urgently addressed by Congress. These are consumer confusion, duplication
of coverage, failure to comply with ratio standards, and continued abuses in sales and
marketing practices.”

These concerns caused Congress to enact new Medigap statutes as part of the
Omnibus Budget Reconciliation Act of 1990 (OBRA 1990). These statutes provided
for the simplification and standardization of Medigap policies and mandatory
compliance. They sought to:

  b	   set minimum standards for Medig,ap policies and prohibit insurers from offering
       beneficiaries more than ten different benefit packages, effective July 30, 1992;

  b    minimize inappropriate   sales and marketing of Medigap policies; and

  b    educate and counsel consumers who wish to purchase Medigap insurance.

The efforts to realize these goals required an unusual collaboration among the Federal

government, NAIC, and States, following passage of the legislation on

November 5, 1990. The OBRA 1990 altered the Federal role in the regulation of

Medigap policies. As of the effective date (July 30, 1992, with some exceptions),

OBRA 1990 restricted insurers from issuing any Medigap policy in any State unless

the State has an approved regulatory program or the Secretary of Health and Human

Services certifies that the policy meets the revised standards. The statute called for

NAIC to revise its model regulation for Medigap policies to meet the OBRA 1990

requirements by August 5, 1991. The revised NAIC standards were to become



                                           2
effective in all States within the following year. The OBRA 1990 also provided for
grants from FICFA to the States to establish an information, counseling, and assistance
(ICA) program to educate consumers.

Beginning July 30, 1991, NAIC, HCFA, and States began to implement the statute.
The NAIC adopted implementing standards, and most States passed new authorizing
legislation. The HCFA reviewed and approved:

   b	   virtually all Medigap regulatory programs of 48 States, the District of Columbia,
        Puerto Rico, and the Virgin Islands. Two States needed extensions for their
        legislatures to act. This action was authorized by statute when State legislatures
        could not meet in time to comply with the mandates of OBRA 1990. The
        HCFA approved Montana’s program on July 3, 1993, and Oregon’s program on
        March 11, 1994; and

  b     most State applications for ICA grants to educate consumers, providing funds
        ($8.99 million in FY 1994) to States and territories for this purpose. Mississippi
        received funding in FY 1994, the last of the 53 States and territories to get
        approval. State Insurance Departments (SIDS) administer the programs in
        17 States, and State Offices on Aging conduct the program in 36 States.

lhe Minimum     Standards and ~he Ten Slandard Medigap Policies

Provisions of the 1990 Medigap amendments included the standardization of Medigap
policies, guaranteed renewability, higher loss ratio requirements, required refunds or
credits if the policies do not meet loss ratio requirements, and prohibition against
virtually any sale of duplicative health insurance coverage to Medicare beneficiaries.
Each State may determine whether insurers may sell some or all the ten benefit plans
in that State, but all Medigap insurers must make Plan A available to beneficiaries if
they sell any of the plans. States may not authorize the sale of more than these
ten Medigap plans. The complete minimum standards for Medigap policies appear in
appendix A.

Massachusetts, Minnesota, and Wisconsin adopted stringent Medigap standardization
requirements before passage of OBRA 1990 and applied to HCFA to waive NAIC
standardization requirements. Since the statute permitted such waivers, HCFA
granted all three waiver applications. As a result, policies must conform to those
States’ unique standardization requirements rather than to the ten standardized
benefit packages.

State Repotig   of A4edigap Complaints

The OBRA 1990 called for SIDS to receive consumer inquiries and complaints about
the availability and marketing of Medigap policies. State reporting of consumer
Medigap complaint data evolved as a means to gauge the extent of complaint activity,
but HCFA had no means for collecting the information. As an interim measure,


                                             3
HCFA has utilized NAIC’S Complaints Database System which contains data on all

lines of insurance from each State. The HCFA asked NAIC to modify the system in

early 1993 to incorporate data specific to Medigap complaints. Since then, NAIC has

been providing I-ICFA with quarterly complaint data updates. (See appendix B for

NAIC’S data collection fields and the characteristics of closed Medigap complaint

cases reported for 1993.)


DEVELOPMENIX         SINCE ISSUANCE OF THE DRAFT’ REPORT


(h October 31, 1994, Congress passed the Social Security Act Amendments of 1994.

Effective January 1995, the amendments clarify that a six-month open enrollment

period applies to all beneficiaries who are age 65, including those who had been

entitled to Part B benefits prior to age 65 due to end-stage renal disease or disability.

The legislation also amends the anti-duplication provision discussed on page 16 of this

report. The HCFA is working with NAIC and the States to incorporate required

changes into the NAIC model regulation and State legislation.


METHODOJ-X)GY


We obtained the views of 156 respondents from all States and other organizations on

the impact of OBRA 1990 on Medijyip insurance regulation and consumer education.

In this report, “States” refers to the States, territories, and the District of Columbia.

We asked each respondent to answer a survey consisting of five core questions. We

asked insurance commissioners two additional questions.


To supplement information from the sumey, we asked respondents from 16 sample

States in-depth questions about their procedures and how OBRA 1990 has affected

their workloads. We selected these States purposively to represent a geographically

diverse mix of States with large, medium, and small Medicare beneficiary populations.

The sample States include 11 ICA programs run by State Offices on Aging and the

remainder run by SIDS. The States are Arizona, California, Colorado, Delaware, .

District of Columbia, Florida, Illinois, Maryland, Mississippi, Nevada, New York,

Oregon, Pennsylvania, Texas, Utah, and Washington.


Besides State regulators, we contacted insurance industry and consumer groups.

Insurer organizations include the Health Insurance Association of America, eight Blue

Cross and Blue Shield plans in four States, and the Prudential Insurance Company.

We contacted the following advocacy organizations: the American Association for

Retired People, the Consumers Union, United Seniors Health Cooperative, Action for

Older Persons, Mass Home Care, Provenant Health Insurance Counseling for Seniors,

and an independent consultant from California.





                                             4

The following table displays the respondent groups, the number   contacted, the number
responding, and the methods used to contact them.


 Respondent Groups
                                       LEZLZZJEEZ
 [nsurance Commissioners                    55             54       mail and telephone
                                                                    9 in-person and
           Policy Approval Staff               16          16
                                                                    7 telephone
   16
                                                                    9 in-person and
 Sample    Complaint Resolution SM’f           16          16
                                                                    7 telephone
 States
           ICA Program Coordinators                                 9 in-person and
                                               16          16
                                                                    7 telephone
 Remaining ICA Program Coordinators            37          36           mail and telephone
 Consumer Advocates                            7            7           mail and telephone
 [nsurer Organizations                         10          10           mail and telephone
 NAIC                                          1

 3?(3TAL                                    158
                                                          ‘:’      .-

Our findings represent all the opinions expressed by respondents. When respondents
lacked enough experience or knowledge to respond to a specific question, we excluded
them from the statistical results related to that question. On the other hand, we have
included and described responses other than the choices available in the statistical
results as appropriate.

We also obtained and reviewed:

        SID documents describing regulations, policies, and procedures for the review
        and approval of Medigap policies, market conduct, and complaint investigation
        and resolution;

        SID and NAIC documents describing the collection and disposition of Medigap
        complaint data;

        NAIC and State complaint data, including the NAIC Complaint Database
        System for cases closed in calendar year 1993; and

        examples of educational information regarding Medigap insurance disseminated
        by HCFA, NAIC, SIDS, ICA grantees, and other advocacy organizations.

We conducted this inspection according to the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.


                                           5
AN OVERVIEW        OF SAMPLE STATES MEDIGAP REGULATION                       AND
EDUCATION

The following isasummmyofthe          16sample States’ Medigap policy and market
conduct review, education, and complaint resolution activities. The States use similarly
structured procedures to conduct reviews, to educate consumers, and to resolve
complaints. They did not specifically create these procedures to regulate Medigap
insurance, but they have applied procedures that have been in use for years and
address all other lines of insurance.

State insurance department respondents described their procedures for reviewing and
approving Medigap policies, for reviewing market conduct, for educating consumers,
and for resolving consumer complaints. They also provided detailed written
procedures and the State regulations from which those procedures were drawn. State
ICA grantees also provided descriptions of their consumer education programs. Our
evaluation of those documents confirmed States’ use of structured procedures to
regulate Medigap insurance and resolve complaints.

Jkkligap Policy Review

Sample States have similar procedures for the submission, review, and approval of

Medigap policies. Typically, States require the insurer to submit policy forms,

proposed rate material with an actuarial justification, and advertising material. Some

States require certificates attesting to compliance with all State laws, actuarial rules for

rates and loss ratios, and readability. Usually, an analyst or attorney reviews the

proposed policy language and an actuary reviews the proposed rates before States

grant approval. If a policy is disapproved, the company typically has up to 60 days to

make necessary corrections and resubmit.


Before any policies may be offered to consumers, most SIDS require review and

approval of both policies and premium rates. According to SID respondents in these

States, regulators perform thorough reviews to assure that policies correspond to

one of the ten standard types, required forms and disclosure statements are used, and

rates are appropriate. Most sample States require insurers to submit Medigap policies

and premium rates for approval before marketing the policies to consumers. Four of

these States, however, have a “deeming” provision. The “deeming” provision means

that insurers may assume approval of proposed policies and rates unless the SID

explicitly disapproves them within a given number of days. In practice, States usually

approve or disapprove filings within the specified period.


A few States use other methods for reviewing policies and rates. In one sample State,

insurers may “file and use” policies or rates by attesting that all requirements are met,

subject to heavy fines and possible loss of licensing if facts establish otherwise. In

another State, insurers must wait for review and approval for proposed policies, but

may file proposed rates and use them immediately.




                                             6

Sample States vary in whether they review marketing materials to assure they are
accurate. Half require review and approval of marketing materials before insurers
may use them, while two deem proposed materials approved unless they explicitly
disapprove them within a given number of days. However, six States neither require
prior nor deemed approval of all marketing materials. These States rely on consumer
complaints to identify problems. A respondent from one of these States said:

       [We utilize] reactionary monitoring. Once there is a complaint made, we
       investigate. Mostly, we assure that insurers and agents don’t use the
       abusive marketing or sales practices of the past through the complaints
       system. An agent or company will complain about another’s practices.
       If we find advertising that has technical violations, we refer it to the legal
       division.

Market Conduct Exams

During market conduct exams, States review insurance company records to check for
compliance with State laws and standards. Most SIDS in the sample States perform
market conduct exams on a cause basis, if they have received complaints or other
information to warrant an extensive review. All but three sample States rely on
complaints to identify candidates for market conduct reviews, since most exams are
very comprehensive and require substantial resources, especially if the number of
companies in the State is high. During an exam, regulators review all lines of
insurance, Medigap being one of the smallest. A respondent from a large sample
State noted, “The complaint process is a major way we monitor performance. We
follow-up on each complaint, and do a market conduct review of that company and its
agents if necessary.”

Several SIDS perform market conduct exams on a three-to-five-year basis, although
some have only begun their first cycle. This practice is more typical of the smaller
States with fewer companies to review. A respondent from a small State told us, “We
perform market conduct exams primarily on domestic companies because we share the
results of exams with other States. We have a three-to-five-year schedule for doing
exams. We also target exams if we suspect problems.”

MA.iigap Complaint   Resolution

Each sample SID has staff devoted to complaint investigation and resolution, often

within a consumer services unit. Usually these staff handle complaints about all lines

of insurance, not just Medigap complaints. States obtain the complaints in writing

where possible and promptly contact insurers and agents, as appropriate.

Complainants are given periodic status on their complaints as well as on their final

disposition.


Although day-to-day operation varies somewhat among sample States’ complaint units,

most discourage investigation by referring agencies, including ICA grantees. This is



                                             7
rarely a problem, since the referring agencies lack investigative expertise and
resources. Some SID complaint units do provide training to ICA grantee volunteers
on recognizing problems and making appropriate referrals, usually in States where the
SID is also the grantee.

The sample States are similar in how they manage Medigap complaints, although they
differ significantly in the extent to which their complaint management information
systems are automated. Several States, including both large and small ones, have
sophisticated complaint management systems to process all complaints, including those
involving Medigap. These States can count receipts, clearances, and pending
workloads. However, only one of these States regularly produces complaint reports
that permit detailed analysis of Medigap complaints. Others do not because the size
of the workload is too small to make any analysis meaningful.

Whenever SIDS take disciplinary action against insurers and agents, including those
few involved in Medigap cases, they publicize the results in detail. States frequently
publish such cases in SID newsletters, which they share with other States, and NAIC’S
interstate electronic messaging system that connects all SIDS. This exposure assures
the widest publicity among States and alerts those who may have the same insurers
and agents operating in their jurisdictions.

Since June 1993, States have reported closed Medigap complaint data quarterly to
NAIC’S Complaints Database System, The NAIC, in turn, provides HCFA the data
for review. For 1993, the sample States reported 1,374 complaints closed,
representing about half the national total. Complaints from sample States are similar
to those from the rest of the nation in both the reasons for complaints and their
dispositions. (See appendix B for further details about Medigap complaints.)

Information   Counseling   and Assktance   Programs

States are in various stages of launching their ICA programs to educate and counsel
consumers. Most ICA grantees in the sample States contract with area aging or other
agencies to set up a network to provide information and counseling. Since only a ,few
paid staff positions are available, the program depends heavily on volunteers. The
ICA providers recruit and train volunteers, develop newsletters and other information,
establish toll-free numbers, and conduct outreach. Half the ICA grantees in the
sample States have established information and counseling networks in all areas of
their States, and six have networks in most areas. One State is set up only in some
areas, and one, a recent grantee, has not yet set up its network. Several States
mentioned the difficulty in establishing programs in rural areas, or in reaching
minorities and other target groups. In the sample States, all but one of the ICA
grantees have set up a toll-free number or will have one shortly.

All ICA grantees in the sample States are establishing outreach programs to inform
those turning 65 about their health insurance options, including Medigap open
enrollment. Grantees use a variety of outreach methods, including radio and television


                                              8
public service announcements and programs, articles in ethnic and neighborhood
newspapers, and presentations at senior centers and other sites. Eleven of the sample
ICA grantees have implemented outreach programs, four have limited outreach, and
one is just starting. Several grantees are negotiating agreements with regional HCFA
and local Social Security offices to provide Medigap information in notices sent to
current and expected Medicare beneficiaries. One State, for example, has arranged to
get the state-wide Medicare carrier to put information about the ICA program into
the mailing of the explanation of medical benefits sent to beneficiaries.

Most sample ICA grantees characterize their relationship and communication with the
State insurance complaint division as “effective,” but three located in State Offices on
Aging believe the relationship is not effective. They cited political differences and
different bureaucratic styles as factors resulting in less effective relationships between
SIDS and ICA grantees, but otherwise these ICA grantee responses were similar to
those of other respondents.

We also learned that NAIC enhances communication among ICA grantees through its
sponsorship of “The Senior Counseling Letter.” The North Carolina ICA grantee was
instrumental in starting this quarterly publication and produced the first editions.
Subsequently, NAIC has produced and distributed it to all grantees. The newsletter
solicits submissions from State programs and incorporates them into each issue,
reflecting their outreach activity, innovative practices, and relevant social and legal
issues.
                                     FINDINGS

IMPLEMENTATION OF 1990 MEDIGAP REFORMS HAS SUBSTANTIALLY
IMPROVED STATE REGULATION OF MEDIGAP INNJRANCE

Most rqxmdents believe Slates are well on the wav to achievin~ the objectivm of OBRA
                                                                     “        �


1990 M&gap reforms in less than two yean since ”implementation

The main goals of the OBRA 1990 Medigap provisions were to help consumers
choose insurance that best fits their needs through (1) standardizing policies,
(2) reducing inappropriate sales and marketing practices, and (3) educating
consumers. As the following chart depicts, more than 90 percent of respondents
believe each objective has been at least partially achieved and a majority said that
standardization has been fully achieved. This response was consistent among the
different groups of respondents.


       RESPONDE~S’          RATINGS OF PROGRESS TOWARD OBRA 1990 GOALS


        OBRA 1990 GOA~

        Policy standardization

      Limiting inappropriate
         sales practices

        Consumer education

                                 o         20         40        60          80       100
                                          PERCENT OF RESPONDENTS

    �    = Fully achieved            ~   = Partially achieved        �   = Not achieved

    �    �   Respondent answered but could not rate progress using the above categories


Respondents agreed that OBRA 1990 has succeeded in simplifying the choices
consumers have to make in buying Medigap insurance. They said-standardizing
benefits allows consumers to compare similar plans offered by different insurers.
Some respondents cautioned, however, that choosing a Medigap policy remains
challenging. Many consumers, they believe, lack sufficient understanding to make
informed choices. They also were concerned that the ten standard plans may not



                                                10

contain the best mix of benefits to Ineet consumers’ needs. One consumer advocate
noted that consumers’ choices are easier, but not optimal:

       The passage of OBRA 1990 has absolutely made it easier for consumers
       to select, since they have only ten choices. Choosing from the wide
       range before could be confusing. However, the situation is not perfect,
       since none of the ten options may exactly fit consumer needs.

Respondents said instances of marketing abuse are much less prevalent since the
implementation of OBRA 1990. Many respondents credited OBRA 1990 provisions,
such as restrictions on commissions and detailed disclosure requirements, with
decreasing inappropriate sales and marketing practices. Both SID and ICA grantee
respondents told us that many recent consumer contacts have more to do with
uncertainty about choosing a policy than with blatantly inappropriate marketing and
sales practices. Yet 49 respondents, including those from 31 States, reported that
some agents or insurers continue inappropriate practices in spite of the reforms.
Other respondents fear that consumers continue to be vulnerable, because many still
do not know what practices are inappropriate or how to avoid abuses.

Respondents believe consumer education is central to making informed choices easier
for consumers and to preventing sales and marketing abuse. As described later in this
report, many told us the ICA program is an important vehicle for educating consumers
about choosing insurance to fit their needs. Two-thirds of respondents, however,
believe this goal is only partially achieved, primarily because educational efforts have
just recently begun and because education is an ongoing process. They believe
improved and continued outreach is necessary to reach more consumers, especially
minority and rural populations.

Many States have provkled signiJican~ consumer safeguards by implementing   starukzrds
exceeding the minimum standards required by OBRA 1990

Encouraged by NAIC, many States have adopted Medigap insurance standards
exceeding those required by OBRA 1990. For example, approximately 75 percent of
all States have adopted NAIC’S recommendation to eliminate first-year sales
commissions for all Medigap replacement policies. This action removed a major
incentive for agents to sell consumers policies they do not need. Although the
conference committee report accompanying OBRA 1990 reflected Congress’s intent to
prohibit first-year commissions for sales of policy upgrades, the final bill omitted this
provision. The NAIC acceded to Congress’s intent by adding a drafting note which
encouraged States to modify their regulations accordingly. The NAIC advised, “If this
phrase is removed, the payment of first-year commissions will not be allowed in any
replacement sale. States will not jeopardize their approval by HCFA if they remove
this language.”

Several States have assured that agents will face severe consequences, including loss of
Iicensure to sell insurance in that State, if they try to sell consumers Medigap policies


                                            11

they do not need. As one SID staffer noted, “We require an agent certification that

the consumer’s current health coverage was reviewed and this new policy is

appropriate to meet the consumer’s needs.” Legislation in other States prohibits

agents from collecting more than one month’s premium until consumers have

examined their Medigap policies for 30 days. This motivates agents to return to see if

consumers are satisfied with their policies.


A few States have adopted community rating of premiums as a consumer safeguard.

Community rating of premiums eliminates automatic rate increases with age. States

did this to respond to the increasing efforts of insurers to offer policies with premiums

calculated by attained age. The cost of these plans increases automatically as the

consumer grows older and is substantially higher in later years when consumers can no

longer afford them. According to one respondent, community rating of premiums has

eliminated both this problem and a major source of consumer complaints in his State.


At the time of our interviews, we found that some States had extended open

enrollment to the disabled, something OBRA 1990 did not do. Many ICA and

advocate respondents complained that the disabled could not take advantage of the

open enrollment period available to beneficiaries first enrolling in Medicare Part B at

age 65. Open enrollment gives beneficiaries six months in which insurers may not

deny them coverage because of health problems. The recent amendments to the

Social Security Act require that an open enrollment period be available to all

beneficiaries aged 65, including those who had been enrolled in Medicare Part B prior

to age 65 due to end-stage renal disease or disability. Some States had extended open

enrollment to the disabled and required insurers to offer at least one policy to

disabled Medicare beneficiaries, even before the federal amendments. Currently,

some States, such as Oklahoma and Pennsylvania, exceed the legislative requirement

by requiring open enrollment for disabled persons of any age.


Most States reported more efficient A4edigap poli~   review since implementing   OBRA 1990

Almost 60 percent of all insurance commissioners and 75 percent of sample State
policy review staff said that their State’s review and approval of Medigap policies is
more efficient since implementing the OBRA 1990 Medigap provisions. Of those who
provided comments, most explained that OBRA 1990 has streamlined their review
process. One policy revie~ver described a typical change in the process:

       We used to have a huge variation in policies submitted. We would have
       to decide in each case if the benefits justified the policy. Now the
       policies are all standard with the ten allowed models, and we don’t have
       to decide about benefits to the individual. Our reviews are standardized
       and don’t take the time they used to.

Most of the respondents who expressed different views said that their States already
had efficient review procedures in place or that their review process did not change.



                                             12

A few others reported that the review of the standard plans requires a more detailed
and time-consuming review.

Consumer education program~ are growing and essential

Many respondents believe that the ICA program not only is effective but also is
important to achieving the OBRA 1990 consumer education objective. Forty-one
respondents, including most advocates, volunteered their belief that the ICA program
is vital to consumer education efforts. As one advocate explained, the ICA program
provides accurate, unbitised consumer information about Medigap. Another consumer
advocacy organization stated that “consumer education has been enhanced, especially
with the increased number of staff and volunteers in the ICA grant program.” Even
some insurers recognized the importance of consumer education. For example,
one insurer acknowledged that, through the ICA program, “at least consumers have
somewhere to turn for help with difficult decisions.”

Approximately one quarter of all respondents believe ICA programs need to address
the consumer confusion resulting from the complexity of Medigap insurance and the
Medicare program. These respondents emphasized the urgency to provide direct
consumer education, counseling, and outreach, especially since there are always new
groups of people eligible for Medicare.

Respondenfi in most Slates believe Medigap complaints have dechked since the
tiplementation of OBRA 1990

Most State commissioners and sample State complaint resolution staff said the number
of Medigap complaints has decreased since OBRA 1990. However, only a few of the
sample States knew what their actual complaint receipts and pending workloads were.
A SID respondent who handles complaints in one State told us:

      We are getting fewer complaints each quarter. Prior to OBRA 1990, we
      used to get a lot of complaints about rates and doctor payments. Now
      [we get] very few about anything, although I can’t give you any exact
      figures. The Medigap standardization has been so successful that we
      would like to see it extended to other kinds of health insurance.

Although respondents told us Medigap complaints generally have decreased, the

number of complaints, they said, was never very large. Complaint resolution staff in

the two sample States with the largest Medicare populations noted that the annual

number of Medigap complaints is fewer than 500 out of more than 100,000 total

complaints received for all insurance product lines. Other States made similar

comments about the small size of their Medigap complaint workloads.


Some respondents reported that the types of complaints they receive have changed

since the implementation of OBRA 1990. For example, there are fewer complaints

about claims because policy coverage is now standard. In some States, the number of marketing-



                                          13
 and sales-related complaints has decreased due to OBRA 1990 restrictions on first-
year sales commissions and duplicative policies. As discussed on page 11, many States
have adopted more stringent standards than required by OBRA 1990. This action has
also helped to decrease complaints. On the other hand, some respondents in different
States told us that complaints have increased as consumers are more aware of their
rights.

We reviewed data from NAIC’S Complaints Database System for complaints closed in
1993 and found no apparent relationships between the regulation of Medigap
insurance and the nature of complaints in the 16 sample States. Analysis of complaint
data by the types of policy, rate, and marketing review sample States use made no
clear connection with the number of complaints closed, the ratio of complaints per
Medicare population, or the reasons for complaints. We did not draw distinctions in
how sample States perform market conduct ex~ms or resolve complaints, precluding
analysis of variations in closed complaints. As noted in our discussion about this
database below, having only closed complaints to analyze prevents any reasonable
comparison of State activity, since the full size and nature of workloads is unknown.

MOST RESPONDENTS BELIEVE THE FEDERALJSTATE                     COLLABORATION
TO INWLEMENT 013RA 1990 WAS EFFECI’IVE

Approximately 85 percent of all respondents believe that Federal/State collaboration
to implement OBRA 1990 Medigap provisions has been effective. A consumer
advocate reflected the views of many, saying, “. . . most of the problems which plagued
Medigap were solved or minimized by the cooperation of States, the Feds, and NAIC.”
Even most insurers believe the process worked well. A national insurers organization
“strongly supports and encourages the continued use of the [OBRA 1990
implementation process].”

A few respondents believe that collaboration was not effective or was problematic.
The problems cited included consumer hardships resulting from the anti-duplication
provision and the long delay in issuing Federal regulations. Ten who believe
collaboration has worked well nevertheless mentioned the need for technical
correction of the anti-duplication provision. Others cited problems with Federal
responsiveness, such as not getting prompt answers to questions.

SEVERAL ISSUES WARRANT FURTHER                    ACTION

Respondent comments and our analysis of complaint data highlight three issues that
warrant action by HCFA. These issues concern the ICA program, NAIC’S Complaints
Database System, and the anti-duplication provision.




                                           1.4

Rapondenfi questioned ~he udequacy of HCFA k role in promoting the ICA program;
HCFA has plans to work more directly wilh Stale programs

While most respondents recognize the important role played by the ICA program,
some believe that HCFA has not given it adequate priority. For example,
one advocate believes that HCFA had no clear idea of what the ICA programs should
do and only began to clarify Federal policy and program standards after the initial
funding. A few ICA grantees said HCFA’S failure to publish notices nationally about
the role of the ICA program illustrates the low priority HCFA gives the ICAS. In a
typical comment, one ICA grantee said each State has to approach the local Social
Security office, Medicare carriers, and fiscal intermediaries for help to get information
to beneficiaries. The grantee concluded that “a sincere commitment to successful ICA
programs would have built these bridges up front.”

The HCFA is aware of ICA grantee concerns and is acting to respond to them. For
fiscal year 1994, HCFA distributed $242,108 among the ten HCFA regional offices for
the support of ICA grantees in each region. Funds were used for travel, contracts,
equipment purchases, and other materials and services. Additionally, Medigap
coordinators in each region support State ICA programs by assisting in training staff
and volunteers, providing technical support, assisting with publicity and outreach, and
creating pamphlets and brochures.

l%e N&C5 Complaints Dalabase System has the potenlial to bean efiective analytical
wol for HCFA; HCFA and NMC are working on ways to improve it

The NAIC established the Complaints Database System in October 1991 as a central
repository for closed consumer complaints against insurers and agents regulated by
NAIC-member States. The system was designed primarily to facilitate market conduct
examinations of companies and to identify national, regional, and State trends that
may be observed from complaints analysis. State reporting of complaint data to NAIC
is voluntary.

Although NAIC did not create the Complaints Database System to be a monitoring
tool for HCFA, it has the potential to be an effective one, We identified several
changes that could improve the usefulness of the database as an effective analytical
tool. These changes involve data that the system currently does not collect as well as
more consistent reporting of required data.

Since States do not report received and pending Medigap complaints, there is no way
to determine the size of the complaint workload at any specific time. This negates the
potential for identifying patterns of behavior among consumers, insurers, and agents
that inform policy makers who seek to improve Medigap products and protect
consumers. Looking only at closed complaints prevents any reasonable comparison of
State activity, since it reveals nothing about investigations in progress.




                                            15

Sample States differ in the date they use to close a complaint, when making a referral
for disciplinary action. Nationwide in 1993, six States closed 38 complaints when they
made referrals for administrative or law enforcement action. They closed the
complaints because their final resolution could take months or years. On the other
hand, one State is holding open more than 60 complaints until such final resolution.
That State’s average complaint processing time is almost nine months, the highest in
the country. Such variations make the analysis of complaint processing time difficult
and any results unreliable. The NAIC’S instruction to States emphasizes using the
date the complaint is referred for disciplinary action as the date the complaint is
closed. However, the instruction leaves the choice of a closing date to the State.

Other changes address the incomplete reporting of policy type and consumer age data
fields. Among the 16 sample States, 44 percent of data on the type of Medigap policy
the consumer has are missing, as are 79 percent on the age of the policyholder. Such
data would be crucial if Congress were to consider revising the number and type of
Medigap policies to make available to Medicare beneficiaries of all ages.

Finally, sample States make excessive use of the “Other” code in recording complaint
data. For example, in the 16 sample States 25 percent of complaint dispositions are
coded “Other,” as are 8 percent of data on the source of the complaint. The use of
this category indicates a possible limitation in the definitions available for complaint
disposition and source, varying interpretations by different staff of the case facts, or
inappropriate coding when the best choice is not immediately evident. It should be
noted that sometimes multiple dispositions result from one complaint, including the
disposition “Other.” (See appendix B for the data collection fields and the
characteristics of closed Medigap complaints reported nationally for 1993.)

The HCFA has negotiated with NAIC to modify the Complaints Database System to
incorporate changes that would strengthen its use as an analytical tool. Also, NAIC is
in the process of analyzing the use of “Other” to determine whether the disposition
codes need to be expanded to include additional common dispositions and reduce the
use of the “Other” code.

Many respondents found the anli-duplication provkion of OBRA 1990 hindered some
beneficiaries from obtaining Medigap coverage; HCFA is working with NMC and the
States to incorporate clarified provisiom into State law

While nationally respondents agreed that the anti-duplication provision has curtailed
the sale of duplicative and unnecessary insurance, at the time of our interviews many
maintained that it also unjustly penalized some consumers. The anti-duplication
provision prohibited insurers from selling Medigap policies to a beneficiary if the
insurer knew that the policy duplicates Medicare, Medicaid, or other health benefits to
which the beneficiary is entitled. But the strict wording of the provision meant that
many beneficiaries who needed Medigap coverage were not able to buy it because
they already had long-term care, hospital indemnity, or employer group health
insurance. Respondents pointed out these beneficiaries had a difficult choice: (1) to


                                             16
forgo Medigap coverage or (2) to drop their current coverage, which generally costs
them little or frequently contains more desirable benefits, such as extended
prescription drug coverage. (See appendix A,page A-2, foradescription        of standard
Medigap benefits.)

According to respondents, State regulators interpreted theanti-duplication   provision
differently, resulting in inconsistent enforcement. Some States followed the provision
strictly, while others allowed concurrent coverage with limited benefit plans or
long-term care insurance. For this reason, they considered duplication of policies to
be continuing in their States. At the time of our interviews, respondents emphasized
the need for technical correction or clarification from HCFA to aid them in
interpreting the provision. Since then, the Social Security Act Amendments of 1994
have clarified that knowingly selling a duplicate Medigap policy to someone who
already has Medigap coverage is not allowed, while selling a Medigap policy to
someone who has other private health insurance is allowed as long as the Medigap
policy pays benefits regardless of the other insurance. The HCFA is now working with
NAIC and the States to incorporate these changes into State law.




                                            17

                       APPENDIX                   A


         THE OBRA 1990 MINIMUM MEDIGAP                ST~DARDS

Standardization ofiWedicare supplemental policies into no more than ten packqp
to as.wkt beneficiaries in comparative shopping for a policy;

Guaranteed   renewability;

Suspension of Medigap beneJits and premiums during Medicaid eligibility (for up
to 24 months if the beneficiary notifies the insurer within 90 days of the start of
Medicaid eligibility. Medigap benefi~s will be renewed f the benejticimy notifies the
ihsurer within 90 days after Medicaid eligibility eti);

New and higher loss ratio requirement for individual policies (65 percent hstead
of 60 percent) and for group policies (75 percent) and required refitndk or credits if
the policies do not meet the loss ratio requiremen~;

Pre-existing conditions limitation (pre-exhting conditions may only be imposed in a
replacement policy to the extent such conditions were not met under the original
policy);

Restrictions on medical underwriting (sir-month open enrollment period for new
Part B enrollees who are 65 or older);

State assurances that thq will maintain and make public~ available copies of all
policy forms approved in the Stale, along with information on the policy premium
and loss ratio data for the past three years;

Implementation of a process for approving or dkapproving premium increas~ and
establkhment of a policy, whereby insurance commiwioners may hoki public
bean-ngs prior to approval of a premium increase;

Required filing in all States in which a policy h marketed   (deemed approval of
mail order policies is no longer permitted);

Clarification that Heallh iWain~enance Ogani.zations are excluded j70m the
definition of a Medicare supplement only when lhey are providing Medicare
benefifi pumuant to a Federal contract under seclion 1876 or 1833 or a
demonstration authority; and

l?ohibition against virtual~ any sale of duplicative health insurance coverage to
Medicare beneficiaries (including prescribed questions that must be asked and
declarations made bv bo~h lhe buyer and seller on the uolicv amlieahon formj.



                                     A-1

                              THE TEN ST~DARD                         MEDIGU           POLICIES


                                                                               A   B     c    D   E   F   G   H   I   J
CORE BENEFIT          Coverage of Part A coinsurance amount ($174
per dayin 1994) for the 61st through 90th day of hospitalization in            �   �      �   �   �   �   �   �   �   �

each Medicare benefit period.

CORE BENEFIp         Coverage for the Part A coinsurance amount
($348 per day in 1994) for each of Medicare’s 60 non-renewable                 �   �      �   �   �   �   �   �   �   �

lifetime hospital inpatient reserve days used.

CORE BENEFIT: After all Medicare hospiial benefits are
exhausted, coverage for 100 percent of the Medicare Part A eligible            �   �      �   �   �   �   �   �   �   �

hospital expenses. Coverage is limited to a maximum of 365 days of
additional inpatient hospital care during the policyholder’s lifetime.

CORE BENEFIT: Coverage under Medicare Parts A and B [or the
reasonable cost of the first three pints of blood or equivalent                .   .      .   .   .   .   �   .   �   .
quantities of packed red blood cells per calendar year untess replaced
in accordance with Federat regutat ions.

CORE BENEFIT Coverage for the coinsurance amount for Part B
seMcx?s (generally 20 percent of approved amount) after $100 annual            �   �      �   �   �   �   �   �   �   �

deductible is met.

Coverage for the Medicare Part A inpatient hospital deductible ($696               �      �   �   �   �   �   �   �   �


per benefit period in 1994).

Coverage for the skilled nursing facility care coinsurance amount                         �   �   �   �   �   �   9   �


($87 per day for days 21 lhrough 100 per benefit period in 1994).

coverage for the Medicare Part B deductible ($100 per calendar year                       �           �               �

in 1994).

Coverage for 80 percent of medically necessaty emergency care in a                        .   .   .   �   .   �   �   �


foreign country, after a $250 deductible.

Coverage for at-home recovery. This benefit pays up 10$1600 per
year for short-term, at-home assistance with activities of daity living                       .           .       .   �


(bathing,dressing,personal hygiene, etc.) for those recovering from
an illness, injury, or surgery.

Coverage for preventive health care. This benefh pays up to $120
per year for such things as a physical examination, serum cholesterol                             .                   .
screening, hearing lest, diabetes screenings,   and thyroid   funciion test.

Cover-age for 100 percent of Medicare Part B excess charges
(difference between Medicare approved amount and actual charges).                                     �           .   �




Coverage for 80 percent of Medicare Part B excess charges
(difference between Medicare approved amount and actual charges).                                         .

Basic coverage for 50 percent of the cost of prescription drags up to
a maximum annual benefit of $1250 after the policyholder meets a                                              �   .
$250 per year deducible.

Extended coverage for 50 percent of the cost of prescription drugs                                                    .
up to a maximum annual benefit of $3000 after the policy holder
meets a $250 per year deductible.
                            APPENDIX                  B


     THE NATIONAL ASSOCIATION OF INSURANCE COMMISSIONERS’

              STANDARD COMPLAINT DATA FORM AND

          THE CHARACTERISTICS OF MEDIGAP COMPLAINTS



The following pages include a copy of the National Association of Insurance
Commissioners’ (NAIC) Standard Complaint Data form and tables that summarize the
characteristics of national Medigap complaints, including reason for complaint,
disposition, type of Medigap policy, source of complaint, and age of insured. We
calculated these statistics using NAIC’S database of complaints that State insurance
departments closed during calendar year 1993. This is the same database that NAIC
routinely sends to the Health Care Financing Administration. In these tables, the total
percents may not exactly equal the sum of individual percents because of rounding.
We did not attempt to verify the data contained in the NAIC Complaints Database
System.




                                         B-1

                                                                                                       NAIC STANDARD                                                         COMPLAINT DATA
                  FIEIJIS WHICH ARE SNAOED ON THIS MM                                                    SHOULD SE USED FoR REPORTING MEDICARE SU~EMENT                                                                                  COMPMNT                INFORMATION THROUGH THE CDS.
                                                                              ....*...J.
                                                                                      ......
                                                                                       ‘. ...... .. “       .:.::.....              “!!08m.Opmmlx, —/ ..:..li..                                      . ...
                  ==M-i.                   ~*..’ .“.::.... .“        ““’””                                                                                  —. ...../.      “’”.”.:~~
                                                                                                                                                                    .-4W.W$.*    ‘ ““’’+’%lm :
                                                                                                                                                                       YY?T                 -+’%’+-””’                                                                                                       ““””’~~
              [
                                                                                                                                                  COMP~;                        A$NST
              Ea@&i.ii;::::., ..... ...,.,,:,      .
                                                 ““””’:””””  ... y.: . ... ..,,..,.:.
                                                                                                                                                                                $:.{:.::,’.wmw
                      ...... ....
                             .. ..........
                                  ... .. .......
                                               . .... .;,,&,,. ....:,....,...       .......&....                 ....
                                                                                                                   .       ..
              ~,m;.:..-’’::,:                              ~:;;~,w,..,w,      .. ..              :..+:;.;:.;:
                                                                        .:,..,.,.....,:%...,
                                                                                  ..           ,........
                                                                                                  ..   .    .,,
               ..+.; ... .....~...w,,
                            . -::...,,...,.i:::s':2;:.;;:Y'.%!?-------'"`:?Y$e---­
                                  ... .. :,:.:y:.
                                               LJ:.,  ..,,,,,
                                                       . .,:,;,:.:,,...
                                                                      ., ...... .::.:<::;#f~>~.:        :,:~,.:,.,<,.                                                                                                                                         “’:”’”’’’F~----
              m~:?$???%.~x,.ex.:.,                             ...... ............
                                                                                .       ........x. ..............~
                                                                                                             .. .          ...<...”/<           ~~../                “..,,.:.’”...;.:.;::;
                                                                                                                                                                                    ..........::,..;.
                                                                                                                                                                            .,.,.,:.,;
                                                                                                                                                                                   ......   ...........................&*@ ,..     . . ...’-’$-..” “ :...:.;...::;5;
                                                                                                                                                                                                                                                                  . .... .... .     ,,
                                                                                                                .. .......
                                                                                                                      ..                                                    ;.:..-r..,..:;.   .;;,;::;..$,      ..y,.,:.,.
                                                                                                                                                                                                                  .       .,,,
              “““’.“*,-*.
               .........     .. .:..........
                                       ... . ,k%,..
                              :;W.:. ..!.,,,...:w.<.,s:F.5
              ~;:~-i+”’::”’.’.i::i:i:;”:;”:                            ;.;<~:..:.p.;<$<:$*~~i;3;,,+.9wG~:
                                                                                       .y?~-fw?               ...                        ly’m”~?~           +?’$yl         :::,:......,,2.,..,,,..:.                     .;:;&*&~:;?~y-”..:.;.2.:::::+:                    ,..:::.        ,’~~
                                               ,;<.+~<   ~..,b  .....
                                                                  . ....... ..d>..>  .*?...       ,......,,.,..m;~>:~:.;.,
                                                                                                         ... ..
                                                                                                              . .                        ... ... ......... .. ....\.,.., ... ..~:.,:.?,...:~&w-:,:**>*:,:*:$:,~,~.
                                                                                                                                    ..:...,:                                   .:.:                                                                                                    :...:
                                                                                                                                                                                                                                                           .           .....       —--           .---—

          1                                                                                                               COMPLAINANT / INSURED lNFORMAIWN                                                                                                                                                          [
                   ......... ... .......            . ......
                                                          . ,.,,.,,.
                                            ““.”
                                               ““’‘“@.g.a....>
                                                           ~:m~~Ag.m                                                                                                  1 2 3
                                                                                                                                                                       4 A@GJU@m                                                         1.<25          2.3s&42          3. SO1O64 4.-
              ;.:..;$,::
                     ~.l~                                                                                         .’:W+J*.:Y
                                                                                                                           :....,.,
                                                                                                                                 ...
                                                                                                                                  . .. .... ... .....,
                                                                                                                                                 ... ,~ ,,..
                                                                                                                                                          ....*.++...
                                                                                                                                                                   ..<.-,+ .....
                                                                                                                                                                            ...                                                                               .. ......”=.......
              ~tixwii>                                           “““ “’”.’+f?:”$%
                                                              ........ .........
                                                                            ............. 3;~g@*?x’.               ..:... ~~~~
                                                                                                                             ~~
                                                             ./.. . ...+     ... ..,..*,.>..

              --mz-ws:&’[e*~~~S*”””””.”                                                                                                                                                                                   ............            ,’, ....
              ~??@!b%~3%@dMzmt                                                                                                   afMkif8:Sm?PmA~2b@#%+iWi                                                                                                                              “::+:                  ““”

          I                                                                                                                            TYPE OF COVERAGE                                                                                                                                                             1
                                                             ti*--l-titimw                                                       ti~w~*m3~ym~tim~ti
..
                                                                                                                               FIRE. Al -ES&CM       P
              1%1                             0105 z    PamOngW                                                                     020sfim. alhc                                                                                   0305nmmenmn
              Low                             0110Cummfa@                                                                           0210~kAWPui                                                                                     0310 f~
                                              0115MmOmych                                                                           021s Cmdi Plqmq                                                                                 0215 hi0hi10Nmns0uW
                                              0120 MmOImmO                                                                          0220 Ounl                                                                                       03200umr
                                              01s almf
     ,.
                                                       0130 Lh&ily                                                                                               oz25LidiMy                                                                             032s Liai&y
                                         L4u4          0135 Ph)dA ~                                                                                              0220nm41                                                                               0330 nmn
                                                       0140 ~      ~                                                                                             0235 Ftm-R4d Pmm’y                                                                     m35Fh-Rdl%qmty
                                                       0145 IJWuu                                                                                                0240 PcnmMPmmny                                                                        u240Pumm#~
                                                       0150 NO.FmdlfPIP                                                                                          0245 Othw                                                                               03450ma
                                                                       01s5 JuA R4hmd
                                                                       01s0 ahof

          LIFF AN D ANNIJ17Y                                                                            WaDE~         ‘AND HFAI ~                                                                                                                                   M!SC~ LA NEOUS
               040shoidd@u*                                                                                 ‘“’”:0505.idvidal                                                                                0505&llud                                                  07C5w~    CamWmmh
               0410 42m@U10                                                                             ‘. ~~
                                                                                                            “+O51OGfmw.                                                                                      Oslo~                                                              0710 FilMty 6 Sunly
                           0415 ~                                                                                  051s C18di                                                                               Osls ~                            lEho                              071s W      M8mn
                           0420awdilulo                                                                            051701hu                                                                                 0s20-                                                               0720kdm@Mmho
                           0425&mInmds4flMim                                                                                              0520~oq                                                                                                                               0722 Tmb
                           0430aIml                                                                     M                                 M250i8at4y                  Mwnm                                                                                                      0730 b4mIowoGurmw
                                    ..                                                                                                    0530 Nea211Onry                                                                                                                      0735 08nmg@Wakw
                                                                                                                                        .,.~~~..,.                                                                                                                             0744 W~my   Comma
                                                                                                                             —.
                                                                                                                                          0s3s ~sdca;..                                                                                                                        0741 I%m81 PKqfams
                                                                                                                                          0540 bJIW.Tmm C8m                                                                                                                    0742 Ouml
                                                                                                                                          0s45 Dw4a
                                                                                                                                          0550wlndCmMy
                                                                                                                                          0525cmlmrtolamohnn
                                                                                                                                          05SOOUIW

          t                                                                                                                      REASON FOR COMPLAINT                                                                                                                                                               1
                                                                                                                              .s04u!164mmm(qmnspumqwy.
                                                                                                                                                  :; ~.
          ;.iy?v#Ff#gyJ$~&t~fi                                                                            ‘=..+W5:~Nu~::..                                  ““,:100s??                                                     .... .                                      ““ W905wblmmhg.AdW&nl).
          -..         :.:
                       ...........
                                . ..                                                                    —.
          ,.:.~wv~,~z&:?                                                                                ..........:,:l,ll~~”~,          ,.,...,., .... ~~ .                                                                                                               :x$loAf)mrHmni%g.
                                   :~~~                .
                                        , ... ‘+W++>,.2:.
                                               ............i!p$g$.                                              ......
                                                                                                                 . . ..rtiwfk        _..:             ......
                                                                                                                                                          . 7..                                                                                                    —.
          “~m?mnfs~ ........... ....... .. ;,J.$;:y:>,F*.:,,,.,
          —..                                                                                                                                                                                                                                                                  091sumpmumh
                                            ...........,,..::,.
                                                 . .          ,..j+                                                                                   —..
          ~“~+~:wsfc~                                                                                         “l120’~R4ilmd?.                                        ““ ~ -mlswliiK4@iiitl:<’’”””;.
          —.                               ...~x.2.sx??+’!
                                  ...........
                                           .......... ......#.. .                                                                                                      .—                                                                                          —. ““az?mibimino                      “’:’ ‘“
           :::<:+*-q*;~~;:**<::,
          —,...
          >*W,..     ,,y~~;.
                                 ,,                       .. ..                                         —.. ..7 nxwuageOwmlal.                                          ,— +020 ~aondma:                                                                               ~~
                                                                                                                                                                                                                                                                        =l!~-
          -..                                                   .........”.                                  ““l:12S’~     IO.*.                                             ~~:~.”v’:;;,i.       “;: ,,, ;                                                                ;;;,~~
                                                                                                                                                                      .. —

           ... ... .. . ~~ia.::;
          ....                                                                                                                                                              .:,=~~                  :...
                                                                                                              “1127;OUMYOI cwo                                                                                                                                         “ %c2mlJn Pms8mwTuti

                                                                                                               1130 Oumf                                                              la3s4xlmw;.:;:j_                                                                       -.~         dcawt8g0
                                                                                                                                                                                                                                                                          ~~:022S130a*..
                                                                  .... .. ....::..                                         clpii6Ymlhwm.l%fina..                               ,—,                                                                                   .: ..a:m*
                                                                                                                                                                                                                                                                          .,,,:,             .,

          ,j+:?$=*:;~~n’~=o’-*’*~’*-
                                                                              $

          J                                                                                                                                               DISPOSITION                                                                                                                                               {
                                            ..... .............
                                                        .                                                                                       .SmUJwlonn0(3)#SmS
          ‘w’%i’~.,lrWmYR&~                                                                                                               1240 “Rdcfmd ld?lqac~                                                                                       1275’~iJ                        ~.       -
          :,;,.... .,3q21r~                                                                                                                                                                                                                 —.
          —..
              ........                   $%UmnIiiy’.                                                                        1245.~wthdmnnfAmUb9Uk:                                                                                       lzmwkymd                     far.0im5@lmq AamlY
          :+::...::tas~~,~~j                             :::~::~j:i::                                                                     ,= ~~~..                                                                                                     Inwxmmmn                     d$au

           .>.:....:l~~~-y::
          .             ....                                                                                                             1255 04My.Rosak4d::. “,                                                                            ~hlflfia
                                                                                                                                                                                                                                            —.                 PuAOn’lw”bmn
          .<,,.><.$~q~~,                                                                                                                 12s0 CanC4Mlimwabwtilommn:.””      ~~                                                                     :29sGonq9Kf MIml   Ugrmm
          —...                              .....
                                                                                                                                                                       ~...:;::..:
                                                                                                                                         12s5 NOnmnndNa*~                                                                                   ~kwkdich
                                                                                                                                                                                                                                            -
                                                                                                                                         1270 Pmmlwl~41b4@Ud..                                                                                    130s.~MOnnmiM
                                                                                                                                                                                                                                                   1310 Qkir.”




                                                                                                                                                                          B-2

                  TABLE 1: REASON FOR MEDIGAP COMPLAINTS


                                            CODE IN          NUMBER OF
     REASON FOR COMPLAINT                                                   PERCENT
                                           DATABASE          COMPLAINTS
 Claim handling                            1005 to 1035         1,080           34.8
 Policyholder service                      1105 to 1130          819            26.4
 Marketing and sales                       0905 to 0930          606            19.5
 Underwriting                              0805 to 0845          599            19.3

 TOTAL NUMBER OF COMPLAINT REASONS                              3,104          100.0

In this table, the total number of complaint reasons does not equal the total number
of complaints (2,799), because 214 complaints contain 2 reason;, 41 contain 3 reasons,
and 3 contain 4 reasons.




                TABLE 2:         DISPOSITION OF MEDIGAP COMPLAINTS


                                            CODE IN          NUMBER OF
  DISPOSITION OF COMPLAINT                                                  PERCENT
                                           DATABASE          COMPLAINTS
 Company position upheld                       1295              488            15.8
 Refund                                        1215              468            15.1
 Claim settled                                 1230              332            10.7
 No action requested or required               1235              236             7.6
 Contract provision or legal issue             1290              216             7.0
 All 16 remaining dispositions             All remaining
                                                                 792            25.6
 (excluding those coded “other”)         codes except 1310

 Dispositions    coded “other”                 1310              560            18.1

 TOTAL     NUMBER       OF COMPLAINT     DISPOSITIONS           3,092          100.0

In this table, the total number of complaint dispositions does not equal the total
number of complaints (2,799), because 269 complaints contain 2 dispositions and
12 contain 3 dispositions.




                                            B-3

          TABLE 3:     COMPLAINTS BY TYPE OF MEDIGAP POLICY



   TYPE OF MEDIGAP POLICY*              CODE IN        NUMBER OF
                                       DATABASE        COMPLAINTS     PERCENT
 Type A                                        A             179         6.4
 Type B                                        B             102         3.6
 Type C                                        c              80         2.9
 Type D                                        D              26         0.9
 Type E                                        E                  5      0.2
 Type F                                        F             165         5.9
 Type G                                        G                  9      0.3
 Type H                                        H              12         0.4
 Type I                                        I              37          1.3
 Type J                                        J              18         0.6
 Policies issued prior to OBRA 1990
 and no longer offered in the State            P             694        24.8

 Other                                         o             332         11.9
 Missing data                             Blank             1,140       40.7
 TOTAL NUMBER OF COMPLAINTS                                 2,799       100.0

�
For descriptions of these Medigap policy types, see appendix A.




                                        B-4

     TABLE 4:         SOURCE OF COMPLAINT FOR MEDIGAP COMPLAINTS


                                                         NUMBER OF
     SOURCE      OF   COMPLAINT
                                     I    CODE IN
                                         DATABASE        COMPLAINTS          PERCENT
 Insured                             I      INS               2,288      I     81.7

 Third party                         I      THP                 168      I     , 6.0

 Producer
 (agent, broker, solicitor, etc.)
                                            PRO                  48
                                                                         I       1.7

 Beneficiary                                BEN                  14      I      0.5

 Other                                      OTH                280       I      10.0

 Missing data                        I     Blank                  1      I      0.0

 TOTAL NUMBER OF COMPLAINTS                                   2,799      I     100.0

For Medigap insurance products, the terms “insured” and “beneficiary” used in this
table generally refer to the same thing--the person insured and eligible for benefits
through the policy. In the NAIC Complaints Database System, however, States have
the discretion to enter data according to their own definitions. Some States may
consider a spouse covered under a joint Medigap policy to be a beneficial rather
than the insured, for data entry purposes.




            TABLE 5: AGE OF INSURED FOR MEDIGAP COMPLAINTS


            AGE CATEGORY                  CODE IN
       NUMBER OF
                                         DATABASE
       COMPLAINTS          PERCENT
 Under age 25                                   1
                9              0.3
 25 to 49                                       2
               11              0.4
 50 to 64                                       3
               17              0.6
 65 and older                                   4
              750            26.8
 Missing data                               Blank
            2,012            71.9
 TOTAL NUMBER OF COMPLAINTS
                                  2.799            100.0




                                         B-5

                                       APPENDIX                         C


                                             HCFA COMMENTS


        ~.m,,,

    /            “                                                                     Health Care



         4
;                        DEPARTMEIiT   OF HEALTH & HUhlAN SERVICES                     FinaMing Administfafion
;

�   “%
                                                                                       Memorandum
                                                      FEB241995




                     To:	         June Gibbs Brown
                                  InspectorGesseraf

                     FROM;	       Bruce C, Wadcck
                                  Administrator

                     SUBf~        OftW of InspeetorGerscrrd(OIG) Draft Report “’llreImpact of the
                                  OmnibusBudget Reeoncihion Act of 1990on State ReguMious of
                                  Medigap
                                        lnsuratscc;
                                                 (OE1419.93-00Z30)

                     Wereviewed   theatww-referenced   reportin whichOIG expressedconcernsabout
                     the Health Care F%sastcing Administration’ssuppersfor the informati~counsc@
                     ands&stancegranteeprogram,and the usefib.ss of the Medigapaxrsplafnb data
                     base systemas assanalytjeid toii.

                     Our detailed commentsOQthe report findingsand reeommendatioasarc attached for
                     your consideration. Thankyou for tbe opportunityto reviewaad commenton this
                     draft report. Please contact us if you wouldlike to discussour commentsand
                     response,

                     Attachment



                 tG_.———
                 HUG        —
                 PDIG       —
                 DIGAS
                 DIGES      z
                 IMKIi      _
                 AWCFAA —.
                 NG-MP      _.                                    -ivx3i39

                                                            xn~~~wq!~    +~ ~~! : I

                 Occm
                        —f

                 I,::{scc                                   [t ~fl

                                                                 d Lz Gjj$~j]

                 OATEsF.NT_2&?_

                                                                 tili,;;dj~




                                                         c-1
           Health Care Financin~Administration’sfl-fCFA’sl”CornmeutS
              on office of InsrrectorGeneral (OK3 Draft Rcuort:
           The Impactof the CMtibus Bud~et RCeorsciliatiooAct 1990
                   on State RezuIatio_        izau Insurance
                                OE149-93-0023Q

OIG RecommerrdatioC

HCFA sbottldimplementplansfor duect regionaloffice(RO) assis~          to
infon’rration,counseling,and assistarsm(lCA) grantee~



We concur with this recornnrendadon.WISilC a fewof the R06 supported the ICA
program from its kptio~ not aUregion$provideddirectsupport. IDresponseto
comments at a meetingin Denver,in March1994,byseveralof tbe ICA State
repracmtativeq HCFA took positivestefNto involveall of tbe R& Be$innirsgin
late Ju!y 1994,HCFA made fundsavailableto tbc ROSforlCA supportactivities.
For fwal yeaI 1994,$242,10$was ulfocstedto the ROSfor trisvcf,contracm
equipmentpumbsses,and otbcr materialsand se-in         support of the lCA
progruns.Thereare Medigapcoordinatorsdesignatedin ench RO in the Divisionof
Medwre, ttsuallyin the beneficiaryservicesarea. ‘lltesocoordinatorsalso work with
the State Officesof Agingto developresponsesto requestsfor informationby
benefieiarie$ ‘fhe NM supportthe Stateprogramsbyassistingin training@affand
vohsntee~ furnishing@f@a] SUpp@assitig iISputrficizingthe programs~ tbe
various media including‘N, radio, Qewspape%ttewslette~ and communicating
through eomprrterbuUetinboards. The ROSalso aasistitsthe creation of various
written materialsincludingpamphletsand brochures.

OIGRecommendatii~
HCFA should consider~andtig the courplaintsdata base systemto reflect
received,C1OSCA  and pendingMedigapcomplahs~,direct State insurance
departments(SID) to furnishkey requireddata, suchas @icy type,for eaeh
reporting period; clarifyinstructiootto assureuniformreportingof data by States.

HCFA Response

We concur with this recommendation.@r initialplans were to collectthese typa of
complaintsand tic data base wasdesigaedto allowentry of these MmpIairsts.
However,wc bad to reiyon the NationalAssociationof lstsurarrceCornmiasiorrers
(NAIC) to providedata from their complaintdata b~ systemin the pas~ because
we did not have approvalfrom the Officeof Managementand Budgetto coflect
complaintsdnta (clearancewas received f)cccmbcr 19513 for closed complaints
                                                                         only).
Tbereforc, we could not compelStates to Wsisb this information.




                                    c-2
Page 2

In order to capture data on received, OpCU, and pendingcomplaiu~ we willhave to
revise the originalc]earaocerequest to includethese e!earerrss.(%trCtlt st.afbg
constraintsprecludeus from starting work on this activity at this rime. We willkeep
you infomwdof our progress.

Additioaal!y,we havediscussedwithNAIC sherequirementfor SIDs10furnishkey
data, and we have tregotiatcddata collectionrequirementswiththem. NAfC ha$ also
agreed to ensure that Statesprovidethe requireddata for transmissionto HCFA

FiiaUy,wc havedeterminedthat a data dictionaryk needed to clarifynwmings of
term to enrwe uniformrepoting. Wc plan to developthe dietiomy and neg~”ate
its implemerttatkxrwith NAICand the States.

OIG &C04UtSt rrdatioa

HCFA shouldworkwith the NAIC and W% to encourageStates to adopt consumer
safeguardsoxceedirr.g
                    the minintrrmstandards,includingopen enrollmentfor the
disabkd and comtnunityratingof ptcmiums,

HCFA ILesposmc

Wc coacur withthis rec~mendatioa, HCFA favorsstrengthening~cneficiasy
safeguardswith regard to Mcdigapinsurance. We havesupporsedteohsrical
wncndmeats that were passed reedy 1ssthe SocialSecurityAct Antendmentsof
1994(the Act), In part these asnexdmeritsrequirethat effectiveJarrrmy 1995,the
&monthopsmeurof.lmcntpericd for MedigappoliciesI@rra with the first month
that a benefidary is age 6Sor older and is errrolledfor benefitsuodcr Part B. lltis
clarifiesthal the open ertrokncatperiodappliesto ~ beneficiarieswho are age 6S,
ittcludingthose who bad been entitledto Part B beacfitsprior to age 6S os e result of
ersd-stagereml diseaseor disability.

f3errefiiiarieswho turned age 65 after the effective date of she originalopen
enrollmentprovisicta(November5, 1991)nndwho did not receivean open
enrollmentperiod beeausetheywere previouslyentitledto Part B @f be giversa
onc.tirrre6-monthopen enrollmentperiodbeginningJanuary 1, 1995, Alsq SOtsw
States aow require open enrohent for the disabledat any age (Oklahomaand
I’errnsylvania).We wouldsupportanyState programthat adopted such provisions,




                                      c-3
                                                                                    ?




Page 3

Ati~tionaUy,HCFA has alsorecognkedtheWe  are alsopursutig
                                      inequitiesassociatedawithtbe
                                                            legisk*U* of
attained-ageraw in the Me&gapmarket.
propmalto man&tc the use of communityratingfor Med@appolicies,

 ~cm~~
 l%e text at the top of pagemm
                             16diw~$    prop=d \c@tion
                                  poposrdshavebeen ens@forasw-h   k-%YM may
                                                             the Act-
 ~~lu&tg antidupha~n.
 want to update the repoti to reflecttbcseamendmenw.

  AIw,the so-of     the dab in tie Tablesfwmdin Appcn& B shdd be idcaticd.
  Table 4 contiks both ‘insuredandbeueMlatY”as soumesof complahs. me mpoti
  shouldexplainthe distentionbeh’eenthem.




                                            C-4


                                                                                        —–
                                                                     ____     ———
